IN THE
SUPREME COURT OF THE UNITED STATES

No. ______________

MARIA MALDONADO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

TO THE HONORABLE COURT:
COMES NOW the Petitioner, Maria Maldonado, represented by the
undersigned counsel, and before this Honorable Court respectfully requests to
proceed in forma pauperis, pursuant to Rule 39.1 of the Rules of the Supreme Court
of the United States. In support of this motion, the undersigned respectfully states
the following:
1. The petitioner was determined to be indigent in the course of the criminal
proceedings before the United States Court of Appeals for the Eleventh Circuit.
2. The undersigned has represented the petitioner as court appointed counsel
under the Criminal Justice Act of 1965 by the United States Court of Appeals for

the Eleventh Circuit. The undersigned understands that this appointment exempts
the petitioner from payment of fees or costs, and from the filing of an affidavit
pursuant to 28 U.S.C. ยง 1915(a).
WHEREFORE, it is respectfully requested that this Honorable Court grant
the petitioner's request to proceed in forma pauperis, and that this court accept the
attached petition for writ of certiorari.

RESPECTFULLY REQUESTED.
In Atlanta, Georgia, this August 13, 2021.

/s/Michael H. Saul
Michael H. Saul
Counsel of Record for Petitioner
Georgia Bar No. 627025
P.O. Box 4504
301 Washington Ave.
Marietta, Georgia, 30061
404-281-1542
saulattorney@yahoo.com or saulattorney@gmail.com

